CEFCU®
MASTERCARD,®
CEFCU REWARDS
MASTERCARD,
AND
CEFCU WORLD
MASTERCARD

CARDHOLDER
AGREEMENT
P.O. BOX 1715
PEORIA, ILLINOIS 61656-1715
MEMBER SERVICE
1.800.633.7077
309.633.7000

M-111950

Contents
Acceptance of This Agreement. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3
Using Your Account.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4
Payments.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 8
Interest Charges.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13
Minimum Interest Charge .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 16
Increased Penalty
Annual Percentage Rate. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 16
Account Fees.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 17
Default/Collection.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 18
Closing Your Account.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 19
Notices/Changes of
Information Relating to You.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 19
Changing this Agreement.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 19
Telephone Monitoring and Recording .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 20
CEFCU CURewards® PROGRAM .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 20
Questions or Concerns
About Your Account .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 20
Your Personal Information.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 20
Enforcing this Agreement.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 20
Assignment.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 21
Governing Law.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 21
Your Billing Rights.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 21
Help Us Do Our Best to
Prevent Credit Card Crime. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 23
Special Rules for
California Residents. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 23
ATM Safety Tips.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 24

2

CEFCU MASTERCARD,
CEFCU REWARDS MASTERCARD,
AND CEFCU WORLD
MASTERCARD CARDHOLDER
AGREEMENT
ACCEPTANCE OF THIS AGREEMENT
This CEFCU MasterCard®, CEFCU Rewards MasterCard,
and CEFCU World MasterCard Cardholder Agreement (“this
agreement”) contains the terms and conditions which govern your
CEFCU MasterCard, CEFCU Rewards MasterCard, or CEFCU
World MasterCard Credit Card and account. This agreement
replaces all earlier agreements related to the Card and account.
Please read the entire agreement and keep it for your records.
Throughout this agreement, the word “Card” means the CEFCU
MasterCard, CEFCU Rewards MasterCard, or CEFCU World
MasterCard Credit Card(s) issued by CEFCU to you. The word
“Card” also includes any other access devices, such as account
numbers (including virtual account numbers, virtual card numbers
and digital card numbers hereinafter with your account number
collectively referred to as “account number”), and Convenience
Checks that we have issued to permit you to obtain credit under this
agreement. The primary cardholder’s account number may differ
from the other cardholder(s)’ account number(s), but all are part
of the same account. We may issue Cards to renew your current
Card or substitute and replace it with a different type of Card if your
current type of Card is discontinued or for other reasons. The word
“Card” also includes any renewal or substitute Card.
Throughout this agreement, the words “we”, “us”, “our” and “CEFCU”
mean Citizens Equity First Credit Union, the issuer of your Card and
account. The words “you” and “your” mean the primary cardholder,
any other cardholder(s) and any person who has been authorized by
you to receive and use the Card.
If at your request, we used your account to issue supplementary
Cards to others, “you” will also mean each one of you. All of you
individually and together agree to be bound by this agreement.
In addition, this agreement will be binding on your personal and
legal representatives.
Please sign the back of your Card when you receive it. You will be
bound by this agreement even if you don’t sign your Card. If we have
issued a Card to you; provided you with a renewal or replacement
Card; or provided you with Convenience Checks, and you keep or
use the Card or Convenience Checks, it means that you understand
and agree to be bound by the terms of this agreement. Your
application for a Card and all other disclosure documents which we
provide to you form an integral part of this agreement.
3

USING YOUR ACCOUNT
Provided that your account is in good standing, you may draw on it
by using your Card, by use of your Card together with your Personal
Identification Number (PIN), by use of your account number
without presenting your Card or by use of a CEFCU MasterCard
Convenience Check provided to you by CEFCU (“Convenience
Check(s)” and/or other access devices included in the word “Card”
when referring herein collectively to the access devices that we
have issued to permit you to obtain credit under this agreement)
wherever the Card or Convenience Checks are accepted or by
Balance Transfers we allow or by Overdraft Protection we approve
and up to the maximum amount we have set as your credit limit.
We are not responsible for refusal by anyone to accept your Card
or Convenience Check. You promise to use your account only for
valid and lawful transactions. You agree not to use your account
for internet gambling transactions or any illegal purpose or illegal
transaction. Any such use by you will constitute (i) a waiver by
you of any right to sue CEFCU respecting any such gambling
transaction, illegal purpose or illegal transaction by you and (ii)
your agreement to indemnify and hold CEFCU free and harmless
from and against any suits or other legal action or liability, directly or
indirectly, resulting from such gambling transaction, illegal purpose
or illegal transaction by you. It is not our responsibility to make sure
that you use your account only for permissible transactions, and you
will remain responsible for paying for a transaction even if it is not
permissible. You authorize us to pay for and charge your account for
all transactions made on your account.

Types Of Transactions
• Purchases: You may use your Card to pay for goods or services.
• Convenience Checks: We may provide you with Convenience
Checks as a way to use your account. All transactions using
Convenience Checks will be treated as Cash Advances and will
be subject to the terms of this agreement that apply to Cash
Advances unless you are notified otherwise in a written notice
from CEFCU at the time we provide you with the Convenience
Checks. Convenience Checks must be ordered through CEFCU.
Only a person whose name is printed on a Convenience Check
may sign it. All Convenience Checks must be written in U.S.
Dollars. CEFCU will not certify a Convenience Check. CEFCU
is entitled to return a Convenience Check unpaid if there is not
enough available credit on your account to pay it, if you are in
default under this agreement, if your Card or Convenience
Checks have been reported lost or stolen, if the Convenience
Check is post-dated (shows a future date), if the Convenience
Check is not signed, if the Convenience Check is expired, or if
the Convenience Check was not ordered through CEFCU, and
for any other reason in our sole discretion. An interest charge
will be imposed from the date a Convenience Check is posted
to your account until the date it is fully paid. A Convenience
4

Check cannot be used to make a payment on your account. Only
Convenience Checks issued on or after July 1, 2014, that conform
to the foregoing requirements will be accepted by us.
• Cash Advances: You may use your Card together with a PIN to
obtain Cash Advances at any Automated Teller Machine (ATM)
that allows you to use the Card. You may also obtain Cash
Advances from financial institutions, businesses or merchants
that accept the Card. If your Card is used to obtain a Cash
Advance, you are deemed to have authorized the transaction. If
you use the Card to obtain traveler’s checks, foreign currency,
money orders, wire transfers or similar cash-like charges; or to
obtain lottery tickets, casino gaming chips, race track wagers or
similar gambling transactions, these transactions will be treated
as Cash Advances.
• Balance Transfers: You may transfer balances from other accounts
or loans with other credit card issuers or other lenders to your
Card, or other Balance Transfers we allow. But you may not
transfer balances to your Card from other accounts with us. If a
portion of a requested Balance Transfer will exceed your available
credit limit, we may process a partial Balance Transfer up to your
available credit limit. A Balance Transfer will be processed by
payment drawn on the account and made by us directly to the
other credit card issuers or other lenders.
• Overdraft Protection: If you have requested and we have
approved Overdraft Protection from the account for a Checking
Account maintained with CEFCU (“Checking Account”), and
provided your account is in good standing, you may draw on
the account by making an overdraft transfer from the account to
the Checking Account in accordance with the CEFCU Deposit
Account Agreement. In addition, your account will be charged
an Overdraft Transfer Fee for each transfer as set forth in this
agreement. All funds will be transferred in increments of $100
and the full amount of the transfer will be treated as a Cash
Advance and will be subject to the terms of this agreement that
apply to Cash Advances. You acknowledge and agree that we may
refuse an overdraft transfer from the account if the full amount
of the transfer and the Overdraft Transfer Fee would exceed the
credit limit of the account. You further acknowledge and agree
that anyone who is authorized to make withdrawals from the
Checking Account may access your account through Overdraft
Protection and that person will be an authorized user.
Mail, Telephone, Internet or Other
Card-Not-Present Purchases
If you incur debt on your account without presentation of your Card
(such as for mail or internet orders, telephone or mobile Purchases),
your obligation to us will be the same as if the Card was used.
Authorized Users
If you allow someone to use your account, that person will be an
authorized user. You should think carefully before allowing anyone
to become an authorized user because you are allowing that person
5

to use the account as you can. You will remain responsible for the
use of your account and each Card issued on your account according
to the terms of this agreement. This includes your responsibility
for paying all obligations reflecting Purchases and Cash Advances
charged to your account by an authorized user.
You may request an additional Card for use by an authorized user
on your account. If you do so, this account may appear on the credit
report of that authorized user. If you have previously authorized
someone to use your Card or Convenience Checks, and have
subsequently withdrawn your authorization, you will continue to be
liable for all obligations incurred by that person’s use of your Card
prior to termination of that person’s permission to use your account.
You must notify us to terminate an authorized user’s permission to
use your account. If you notify us, we may close the account and/or
issue a new Card or Cards with a different account number.
An authorized user’s permission to use your account will be
considered terminated when we close the account and/or issue a
new Card or Cards with a different account number. You should also
recover and destroy any Cards, Convenience Checks or any other
means of access to your account from that authorized user.
Not Exceeding Your Credit Limit
You agree not to incur any obligations in excess of the credit limit of
the account authorized for you by CEFCU. The credit limit will be
indicated in a separate disclosure document and/or on the cardmailer
accompanying your Card and/or on your monthly statement.
You may ask for a credit limit increase by calling: 1.800.858.3400
or 309.633.3400.
If you exceed your credit limit, CEFCU may: (a) require the
immediate payment of the amount in excess of the credit limit; (b)
charge your account without waiving its right to demand immediate
payment of the amount in excess of the credit limit; (c) refuse to
permit any Purchases, Balance Transfers or Cash Advances in excess
of the credit limit; and (d) reverse any Purchases, Balance Transfers
or Cash Advances in excess of the credit limit as a result of the fault of
the merchant or person selling the goods or services. This agreement
applies to any balance over your credit limit. Subject to applicable
law and at our discretion, we may increase, reduce or cancel your
credit limit or allow you to exceed your credit limit without giving
notice to you. However, if you have asked us not to do so, we will not
increase your credit limit. A change to your credit limit will not affect
your obligation to pay us. We reserve the right to refuse to honor any
use of the Card or Convenience Checks which would cause you to
exceed your credit limit.
Transactions In Foreign Currency
If you use your Card for transactions in a currency other than
U.S. Dollars, the transactions will be converted by MasterCard to
U.S. Dollars, using either (1) a rate selected by MasterCard from
the range of rates available in wholesale currency markets for the
6

applicable central processing date, which rate may vary from the
rate MasterCard itself receives or (2) the government-mandated
rate in effect for the applicable central processing date. The currency
conversion rate for the applicable central processing date may differ
from the rate in effect at the time of the transaction or on the date
the transaction is posted to your account. If a credit is subsequently
given for a transaction and has a different central processing date,
then the exchange rate of the credit may be greater or less than
that of the original transaction. You agree to accept the converted
amount in U.S. Dollars. In addition, if you use your Card and PIN to
obtain a Cash Advance at an ATM that involves a multi-national or
worldwide automated teller machine network switch and involves a
currency other than U.S. Dollars, the transaction will be converted
to U.S. Dollars, generally using either (1) a government-mandated
rate, or (2) a wholesale market rate in effect the day before the
transaction processing date. The currency conversion rate used
on the processing date may differ from the rate in effect at the
time of the transaction or on the date the transaction is posted to
your account.
Refusal To Authorize Transactions
We may, but are not required to, decline a transaction on your
account because of operational considerations, because your account
is in default, to protect against potential fraudulent or unlawful
activity, or in our discretion, for any other reason.
Should a transaction on your account be declined either by us or a
third party, even if you have sufficient credit available, we will not be
responsible for any losses that may result. For online transactions,
we may require that you register your account with the “MasterCard
SecureCode” authorization system or such other authorization
system as we may direct to protect you and us. We will notify you if
we want you to register. If you do not register, we may not be able to
honor your online transactions.
Loss, Theft Or Unauthorized Use
You will inform us immediately by telephone and in writing about
any actual or suspected loss, theft or unauthorized use of your
Card, account number, PIN or Convenience Checks. Notify us in
writing at CEFCU, P.O. Box 1715, Peoria, Illinois 61656-1715 and
by phone at 1.800.633.7077 or 309.633.7000, of the loss, theft or
possible unauthorized use. You agree that we will consider that
all transactions have been authorized by you until you advise
us otherwise.
If your Card is lost or stolen, you will not be liable for unauthorized
use of your Card. However, you must identify for us the unauthorized
charges from which you received no benefit. We may ask for your
assistance with our investigation by providing us information in
writing to help us find out what happened.
Keep Your PIN Confidential
You agree to keep your PIN confidential and separate from your
Card at all times.
7

Ownership Of Card
You agree that the Card remains the property of CEFCU and will
be surrendered to CEFCU on demand; and, that you do not have
the right to assign or transfer your rights and obligations under this
agreement, your account or any Cards to anyone else.
Observing Your Card’s Expiration Date
If your Card contains an expiration date, you agree not to use it or
any Convenience Checks after such expiration date. If they are used,
you agree to pay any debts that are incurred.
ATMs
The availability of ATM services and the Cash Advance amount you
can withdraw each day may vary from time to time and without
prior notice to you. We are not liable if ATM services are not
available or for any loss or damage you may suffer because of your
use of an ATM.

PAYMENTS
Providing You With Account Statements
We will send you a monthly account statement if there have been
transactions during the last month or if you owe us any money on
the account. The number of days covered by each account statement
may vary (normally between 28 and 33 days) as a result of several
factors, including holidays, weekends and the different number of
business days in each month. We will send account statements only
to the primary cardholder at the most current statement mailing
address that we have on file. The statement shall be conclusively
deemed correct and accepted by you unless CEFCU receives a
proper written notification of a billing error within 60 days of the
first mailing or delivery to you of the monthly statement on which
the disputed item(s) or amount(s) is/are reflected.
Repaying Your Obligations
When you access your account in a manner that we permit, or when
you authorize others to use it, you will incur an obligation. You agree
to pay all obligations reflecting Purchases, Balance Transfers and
Cash Advances charged to your account because of authorized use
of the Card by you and/or any person authorized by you to use the
same upon presentment of such obligations to CEFCU. The primary
cardholder agrees that, whether or not the other cardholder(s) is/are
a member of CEFCU and whether or not the other cardholder(s)’
Card(s) has/have a separate number and/or is/are embossed with the
other cardholder(s)’ name, he or she is primarily liable for paying
all obligations reflecting Purchases, Balance Transfers and Cash
Advances charged to the account. We will add a Finance Charge, fees
and other applicable charges to your obligations and these amounts
will form part of your obligations. You agree to pay CEFCU for all
such obligations, at such place as CEFCU designates, with applicable
interest charges and any Fees that may be due, in accordance with
billings and the current Extended Payment Schedule. Interest
8

charges shall continue to accrue until the principal balance is paid
in full. You may prepay your New Balance in full without penalty.
Keeping Your Account In Good Standing
When you incur obligations on your account, we will send you
an account statement which will indicate the payment due date. If
you do not repay your obligations in full by the payment due date,
you agree to make the minimum monthly payment which we will
indicate on your account statement. A Minimum Payment will
appear on your account statement and payment of not less than the
amount thereof must be made within 25 days after the Statement
Date. The Minimum Payment will be the sum of (i) the amount
determined in accordance with the following Extended Payment
Schedule (Preliminary Minimum Payment), (ii) any amount past
due, and (iii) any amount by which your New Balance exceeds your
authorized credit limit. Extended Payment Schedule: If the New
Balance is $10.00 or less, the Preliminary Minimum Payment will
be the New Balance in full. If the New Balance is more than $10.00,
the Preliminary Minimum Payment will be 3% of the New Balance,
or $10.00, whichever is greater. Any past due or over credit limit
amount must be paid as soon as you receive your account statement.
Applying Your Payments
Your payment will be applied in a manner we determine. Subject
to applicable law, we will apply your payment amounts in excess of
your minimum payment (to the extent sufficient) to pay balances
with higher interest charges before applying it to balances with lower
interest charges. Subject to applicable law, we may adjust from time
to time the date we use to determine the applicable interest rates
and balances for applying your payment amounts in excess of your
minimum payment. Notwithstanding the foregoing, if a balance on
your account is subject to deferred interest or a similar program
under which you are not obligated to pay interest on that balance if
you pay that balance in full within a specified period, we will apply
your payment amounts in excess of your minimum payment during
the two billing cycles immediately preceding the expiration of that
specified period (to the extent sufficient) to pay that balance. Subject
to applicable law, we reserve the right to change the order in which
we apply payments. The sooner you pay the New Balance, the less
you will pay in interest charges.
Acceptance Of Late Or Partial Payments
We may delay enforcing our rights under this agreement and may
accept late payments, partial payments and payments marked as
“paid in full” or containing similar wording without losing any rights
that we have under this agreement or by law, including the right to
recover in full all amounts that you owe to us on your account.
Skip Payment Option
We may, at our option, allow you to skip a payment from time to
time. You will be notified in advance of when this option is available
to you. You may continue to make regular payments as determined
in this agreement and/or additional payments if you wish and you
9

will reduce the amount of interest charges that you will have to pay
if you do so. If you exercise the skip payment option when it is made
available to you, you will not be charged a Late Fee for those payments
skipped. However, if you exercise the skip payment option when it
is made available to you, interest charges and insurance premiums,
if any, will continue to accrue on the entire unpaid balance of your
account during that skip payment period in accordance with this
agreement. The statement sent to you immediately following the
skip payment period will indicate the Minimum Payment due.
At that time, your Minimum Payments will return to the amount
computed in accordance with the terms of this agreement and be
due on the due dates as specified in this agreement.
Applying Credit Receipts
If you use your Card or Convenience Checks for a transaction which
is subsequently canceled and you are given a credit receipt, we will
credit your account by the amount shown on the credit receipt within
three (3) business days after our receipt of the credit transaction. The
credit will be processed as of the posting date, not the transaction
date for purposes of the Average Daily Balance calculation.
Credit Balances
You may request a refund of a credit balance at any time. We may
reduce the amount of any credit balance by the amount of new
charges or fees billed to your account. We will not pay you interest
on any credit balances. If your account has a credit balance for four
(4) or more consecutive statements we may refund the credit balance
to your Savings account with us.
Right To Offset
If you have more than one account with us, and if any one of your
accounts is not in good standing, you agree that we may offset your
credit balance against the balance of the account which is not in
good standing.
Pre-Authorized Debits
You may authorize a third party to automatically charge your account
for repeat transactions by way of a pre-authorized debit (for example,
monthly utility charges, memberships and insurance premiums).
If pre-authorized debits are stopped for any reason (including
because your account is closed or suspended for any reason), you
are responsible for notifying the biller and paying these charges
directly. If your Card or account information changes: (a) you are
responsible to provide your new Card and account information to
third parties to continue your pre-authorized debits; (b) we may, but
are not required to, provide your new Card and account information
to third parties to continue your pre-authorized debits; and, (c) we
may, but are not required to, pay from your new account number
charges that you authorized to be billed to your old account number.
Promotions
From time to time we may offer special terms for your account. If
we do, we will notify you about the terms of the offer and how long

10

they will be in effect. Any promotion is subject to the terms of this
agreement, as modified by the promotional offer.
Making Payments
Payment can be made by you by the following methods:
• Payment by mail or in person at any CEFCU office.
• Payment by automatic transfer from your CEFCU Savings or
Checking Account in accordance with your written authorization
executed by you either pursuant to CEFCU’s Credit Card
Automatic Transfer/Payment Program (the “Credit Card
ATP Program”) or using CEFCU’s standard Authorization/
Cancelation of Automatic Transfers Form (the “ALC Program”).
If you have authorized payment through the Credit Card ATP
Program, then the amount you have specified in the Credit
Card ATP Program, whether (a) the Minimum Payment, (b)
a Fixed Monthly Amount, or (c) the New Balance in full, will,
subject to the availability of sufficient funds in your designated
Savings or Checking Account, be transferred in accordance with
the Credit Card ATP Program on the next succeeding transfer
date specified in your Credit Card ATP Program authorization
unless (i) the statement shows an account balance of zero dollars
and no payment due or (ii) you make written request to CEFCU
not less than three (3) business days prior to the scheduled date
of the transfer. If you have authorized payment through the
ALC Program, then the amount you have specified in the ALC
Program transfer authorization will, subject to the availability of
sufficient funds in your designated Savings or Checking Account,
be transferred in accordance with the ALC Program transfer
authorization unless you make written request to CEFCU not
less than three (3) business days prior to the scheduled date of
transfer. If the amount transferred in accordance with the Credit
Card ATP Program or your ALC Program transfer authorization
is less than the Minimum Payment, you agree to pay the balance
of the Minimum Payment. You acknowledge that the Credit Card
ATP Program and the ALC Program are offered as a convenience
to CEFCU members and each is optional. If you have executed a
Credit Card ATP Program request or an ALC Program transfer
authorization, you have authorized and directed CEFCU to make
transfers in accordance with that request. It is understood that
if you have executed a Credit Card ATP Program request or an
ALC Program transfer authorization, unless your participation in
either Program has been terminated in accordance with the terms
of that Program, the request or authorization will remain in full
force and effect until you cancel the request or authorization by
written notice to CEFCU at least three (3) business days prior to
the next scheduled transfer date.
• Payment by automated means using a Money Center 24® ATM,
Fast Track Teller, or the Touch-Tone Teller Program; or, you may
use the CEFCU On-Line® Program or Mobile Banking Program
for either (1) an internal transfer from your CEFCU Savings, My
Use, Holiday Saver, Checking, or Insured Money Market Account
to your CEFCU credit card account, or (2) an external transfer,
11

from an account you hold at another financial institution to your
CEFCU credit card account (subject to the terms and availability
at the other financial institution).
• Payment by transfer you authorize CEFCU to make from your
CEFCU Savings, My Use, Holiday Saver, Checking, or Insured
Money Market Account pursuant to a telephone request you make
for a specific transfer by calling 1.800.633.7077 or 309.633.7000.
• Payment by Tel-Entry transaction (ACH transfer from an account
at another institution), subject to the terms and availability at the
other financial institution.
• Payment by your online debit from your account at another
financial institution, subject to the terms and availability at the
other financial institution.
• Payment by Auto Pay debit from your account at another
financial institution (subject to the terms and availability at the
other financial institution) each month on the Payment Due Date
for: (i) the current month’s Minimum Payment due; (ii) the full
Balance; or, (iii) a fixed payment amount. If you select this Auto
Pay option, there is an additional Auto Pay service authorization
form that you will need to request, sign and return to us before
we can process payments automatically. If you select this Auto Pay
option, you agree to pay CEFCU’s applicable Auto Pay fee, if any.
You may notify us in accordance with the terms of this form if you
wish to revoke your authorization for Auto Pay.
Crediting Payments
A payment made by mail, by telephone transfer, or by electronic
means will, if received by 5:00 p.m. (CT), be credited to your account
as of the calendar day it is received; a payment made in person at a
CEFCU office with the direct assistance of or to a CEFCU employee
will, if made before the close of business of that office, be credited
to your account on the calendar day made; and, a payment made
using the Credit Card ATP Program or the ALC Program will be
credited to your account on the date of the transfer. A payment made
by mail must be sent by first class mail postage prepaid to the address
specified in your periodic statement and only checks or money
orders should be sent by mail. Payments made by mail or in person
at a CEFCU office must be accompanied by the specified detachable
portion of your statement or a separate writing setting forth your
name and correct Credit Card Account Number. All payments must
be made in U.S. Dollars. A payment made by mail at an address
other than the address specified in your periodic statement and/or
a payment made that does not otherwise conform to the foregoing
requirements that is accepted by us may result in a delay in crediting
your account, but in no event more than five (5) days from the
date of receipt, and may subject you to additional interest and Late
Payment Fees. A payment made by any of the methods stated in
the “Making Payments” section of this agreement will result in an
increase to your available credit within two Business Days after the
date your payment is credited to your account. For purposes of this
section, Business Days means Monday through Friday (except for
12

days our offices are not open and except for Christmas Eve Day). The
closing date of the billing cycle is referred to as the “Statement Date”
and will be specified on your statement. All Payments, Credits, Cash
Advances, and Purchases made after the Statement Date will appear
on your next statement.

INTEREST CHARGES
The Conditions Under Which Interest Charges
Will be Imposed
Cash Advances/Convenience Checks. We will begin charging
interest on Cash Advances on the transaction date, unless the Cash
Advance transaction is not posted to your account until a date in
a billing cycle beginning after the billing cycle in which the Cash
Advance transaction occurred, and, in that event, interest will be
imposed from the first day of the billing cycle in which the Cash
Advance transaction is posted to your account, and will continue
until the date payment is received by CEFCU. Any Cash Advance
you obtain on your account and any transaction by which you
purchase items that are directly convertible to cash will constitute
Cash Advances. Examples of such transactions are the purchase of
money orders, wire transfer money orders, casino gaming chips,
opening deposits, traveler’s checks, and foreign currency. Unless
otherwise provided in a written notice from CEFCU to you sent
with the Convenience Check issued on or after July 1, 2014, all
Convenience Check transactions are considered Cash Advances.
There is no time period within which to avoid this interest charge.
Purchases and Balance Transfers. Your due date is at least 25 days
after the close of each billing cycle. We will not charge you any
interest on Purchases and Balance Transfers if you pay your entire
balance by the due date each month. If you do not pay your entire
balance by the due date, interest will be imposed from the date the
Purchase or Balance Transfer transaction occurs, unless the Purchase
or Balance Transfer transaction is not posted to your account until a
later billing cycle in which event interest on that Purchase or Balance
Transfer will be imposed from the first day of the billing cycle in
which it is posted to your account, and will continue until the date
payment is received by CEFCU. Interest charge will also be imposed
on Purchases and Balance Transfers included in the New Balance
when the New Balance is not paid in full within 25 days after the
Statement Date.
The Method Of Determining The Balance Subject
To Interest Rate
Interest charge will be imposed on the “Average Daily Balance” of
Cash Advances, the “Average Daily Balance” of Balance Transfers
and the “Average Daily Balance” of Purchases on your account,
including current transactions (those occurring since your last
billing statement). We figure the interest charge on your account
by applying the periodic rate to the “Average Daily Balance” of
your account (including current transactions). To get the “Average
13

Daily Balance” for Purchases, for Balance Transfers and for Cash
Advances, separately, we take the beginning balance of Purchases,
the beginning balance of Balance Transfers and the beginning
balance of Cash Advances on your account each day, add any
new Purchases occurring on that day, any new Balance Transfers
occurring on that day, and any new Cash Advances occurring that
day, and subtract any Payments, Credits, unpaid interest charges, and
any unpaid Fees. In determining the balance of Purchases on your
account each day, any Purchase that occurred in a prior billing cycle
but was not posted to your account until a subsequent billing cycle
will be included in the Purchases balance starting with the first day
of the billing cycle in which that Purchase is posted to your account.
In determining the balance of Balance Transfers on your account
each day, any Balance Transfer that occurred in a prior billing cycle
but was not posted to your account until a subsequent billing cycle
will be included in the Balance Transfers balance starting with the
first day of the billing cycle in which that Balance Transfer is posted
to your account. In determining the balance of Cash Advances on
your account, any Cash Advance that occurred in a prior billing
cycle but was not posted to your account until a subsequent billing
cycle will be included in the Cash Advances balance starting with
the first day of the billing cycle in which that Cash Advance was
posted to your account. For any special promotional offers then in
effect, we figure the portion of the interest charge on your account
attributable to the special promotional offer by applying the periodic
rate for the special promotional offer to the “Average Daily Balance”
of the special promotional offer. To get the “Average Daily Balance”
for any special promotional offer we take the beginning balance
for the special promotional offer on each day, add any new special
promotional offer transactions occurring that day, and subtract any
payment or credit applied to the special promotional offer on that
day. In determining the balance of any special promotional offer on
each day, any special promotional offer transaction that occurred
in a prior billing cycle but was not posted to your account until a
subsequent billing cycle will be included in the special promotional
offer balance starting with the first day of the billing cycle in which
that special promotional offer transaction was posted to your
account. This gives us the daily balance for Purchases, the daily
balance for Balance Transfers, the daily balance for Cash Advances
(credit balances are considered to be $0) and the daily balance for
special promotional offers. Then, all the daily balances for the billing
cycle are added separately for Purchases, for Balance Transfers,
for Cash Advances and for special promotional offers and each is
divided by the total number of days in the billing cycle. This gives
us the “Average Daily Balance” for Purchases, Balance Transfers,
Cash Advances and special promotional offers for the billing
cycle. When the same Monthly Periodic Rate and corresponding
ANNUAL PERCENTAGE RATE applies to more than one type of
transaction, a single computation for the types of transaction with
the same Monthly Periodic Rate and corresponding ANNUAL
PERCENTAGE RATE will be made.

14

The Method Of Determining The Amount
Of The Interest Charge
Interest charge will be computed separately for Purchases, Balance
Transfers and for Cash Advances by applying the Monthly Periodic
Rate for Purchases to the “Average Daily Balance” of Purchases, the
Monthly Periodic Rate for Balance Transfers to the “Average Daily
Balance” of Balance Transfers and the Monthly Periodic Rate for
Cash Advances to the “Average Daily Balance” of Cash Advances.
The Monthly Periodic Rate will be a VARIABLE PERIODIC RATE.
The VARIABLE PERIODIC RATE is determined in part by the
“Prime Rate” and in part by a “Margin”. The “Prime Rate” means the
“Prime Rate” as published under “Money Rates” in The Wall Street
Journal on the computation dates. The computation dates will be
December 1, March 1, June 1, and September 1 (or if such dates do
not fall on a Business Day, the first publication day thereafter). The
“Margin” means certain percentage points. The “Margin” will differ
for Purchases, for Balance Transfers and for Cash Advances and are
based on your creditworthiness. The initial Monthly Periodic Rate
and corresponding ANNUAL PERCENTAGE RATE for Purchases,
the initial Monthly Periodic Rate and corresponding ANNUAL
PERCENTAGE RATE for Balance Transfers, and the initial Monthly
Periodic Rate and corresponding ANNUAL PERCENTAGE RATE
for Cash Advances for your account and the “Margin” for Purchases,
the “Margin” for Balance Transfers, and the “Margin” for Cash
Advances for your account are disclosed in the Account-Opening
Disclosure Statement accompanying this agreement which is
incorporated by reference and made a part of this agreement by this
reference thereto. That “Margin” for Purchases, that “Margin” for
Balance Transfers and that “Margin” for Cash Advances will apply to
your account on each computation date thereafter. The VARIABLE
PERIODIC RATE for Purchases will be revised quarterly on the
computation dates and will be the sum of the “Prime Rate” on each
computation date plus the “Margin” for Purchases. The VARIABLE
PERIODIC RATE for Balance Transfers will be revised quarterly on
the computation dates and will be the sum of the “Prime Rate” on
each computation date plus the “Margin” for Balance Transfers. The
VARIABLE PERIODIC RATE for Cash Advances will be revised
quarterly on the computation dates and will be the sum of the
“Prime Rate” on each computation date plus the “Margin” for Cash
Advances. The Monthly Periodic Rate and corresponding ANNUAL
PERCENTAGE RATE current as of each monthly account statement
and the “Margin” for Purchases, the “Margin” for Balance Transfers
and the “Margin” for Cash Advances are disclosed on your monthly
account statement. An increase in the Prime Rate may result in an
increase in the Monthly Periodic Rate and corresponding ANNUAL
PERCENTAGE RATE for your account. A decrease in the Prime
Rate may result in a decrease in the Monthly Periodic Rate and
corresponding ANNUAL PERCENTAGE RATE for your account.
If a change in the Prime Rate occurs on a computation date, the
new VARIABLE PERIODIC RATES will apply to the “Average Daily
Balance” of Purchases, to the “Average Daily Balance” of Balance
Transfers and to the “Average Daily Balance” of Cash Advances
as calculated on your statement billed on or after the first day of
15

the quarter following the computation date. For purposes of this
agreement, the quarters begin on the first day of January, April, July
and October. The VARIABLE PERIODIC RATES are divided by 12
to determine the “Monthly Periodic Rate”.
If the Monthly Periodic Rate increases, you will pay more in interest
charges than had it not increased and both the number of minimum
monthly payments required to pay the account balance and the
amount of each minimum monthly payment may increase. The
Monthly Periodic Rate for Purchases, for Balance Transfers and for
Cash Advances will never be greater than the lesser of (1) 2.49917%
(corresponding ANNUAL PERCENTAGE RATE is 29.99%) or (2)
the maximum rate permitted by applicable law.

MINIMUM INTEREST CHARGE
If interest charges are being added to your account, but the total
of such interest charges for Purchases, Balance Transfers and Cash
Advances is less than $.50, we assess a minimum interest charge of
$.50. If more than one type of transaction is assessed an interest
charge, we add the minimum interest charge to any such transaction
at our discretion.

INCREASED PENALTY
ANNUAL PERCENTAGE RATE
If you fail to make a payment equal to or greater than the Minimum
Payment due on your statement within sixty (60) days after the
Payment Due Date for that payment, the ANNUAL PERCENTAGE
RATE for Purchases will be computed by adding 17.75% to the
“Prime Rate” if you have a CEFCU MasterCard and 18.75% to
the “Prime Rate” if you have a CEFCU Rewards MasterCard or
CEFCU World MasterCard, the ANNUAL PERCENTAGE RATE
for Balance Transfers will be computed by adding 17.75% to the
“Prime Rate” if you have a CEFCU MasterCard and 18.75% to
the “Prime Rate” if you have a CEFCU Rewards MasterCard or
CEFCU World MasterCard, and the ANNUAL PERCENTAGE
RATE for Cash Advances will be computed by adding 20.75% to
the “Prime Rate” if you have a CEFCU MasterCard and 21.75%
to the “Prime Rate” if you have a CEFCU Rewards MasterCard or
CEFCU World MasterCard and will be effective on the “effective
date.” The “effective date” will be 45-60 days after you are provided
written notice sent after the Minimum Payment is more than 60
days late. These ANNUAL PERCENTAGE RATES will terminate
not later than six (6) months after the “effective date” if you make the
Minimum Payment due on your monthly statements on or before
the Payment Due Dates during that period. If you do not make
the Minimum Payments due on your monthly statements on or
before the Payment Due Dates during that period, these ANNUAL
PERCENTAGE RATES will remain in effect until you have made
six (6) consecutive payments equal to or greater than the Minimum
16

Payment due on your monthly statements on or before the Payment
Due Dates on your monthly statements. After the rates are no longer
in effect, the Monthly Periodic Rates and corresponding ANNUAL
PERCENTAGE RATES will be changed to the then applicable rates
as determined by this agreement. The increased penalty Monthly
Periodic Rate for Purchases, the increased penalty Monthly Periodic
Rate for Balance Transfers and the increased penalty Monthly
Periodic Rate for Cash Advances will never be greater than the lesser
of (1) 2.49917% (corresponding ANNUAL PERCENTAGE RATE is
29.99%) or (2) the maximum rate permitted by applicable law.

ACCOUNT FEES
Late Payment Fee
You agree to pay CEFCU a Late Payment Fee of the lesser of $25.00
or the amount of the Minimum Payment due immediately prior to
the assessment of the Late Payment Fee if a payment equal to or
greater than the Minimum Payment due on your monthly statement
is not made on or before the Statement Date following the Payment
Due Date on your monthly statement. Only one Late Payment Fee
will be imposed for any one overdue payment.
Foreign Transaction Fee
If you use your Card for an international transaction which is defined
as a transaction where the country in which the transaction was
completed i.e., location of the merchant, ATM, financial institution
or business, is other than the United States, Puerto Rico and the
U.S. Virgin Islands, even if the transaction currency is the U.S.
Dollar, you agree to pay CEFCU a Foreign Transaction Fee (“FTF”)
of 1% of the amount of each transaction. The FTF will apply to
all international purchases, credit vouchers, and Cash Advances
and reversal transactions. (The FTF does not apply to World
MasterCard accounts.)
Cash Advance Fee
You agree to pay CEFCU a fee of $1.00 for each advance if you
use your Card and PIN to obtain a Cash Advance at a non-Money
Center 24 ATM.
Overdraft Transfer Fee
You agree to pay CEFCU a fee of $8.00 for each overdraft transfer
made from your account to your CEFCU Checking Account.
Copy Request Fee
You agree to pay CEFCU a fee of $2.00 for each copy of a monthly
statement, a sales draft, a Cash Advance receipt, or a Convenience
Check you request unaccompanied by an allegation of error.
Returned Convenience Check Fee
You agree to pay CEFCU a fee of the lesser of $25.00 or the amount
of the Convenience Check for each Convenience Check presented to
CEFCU for payment which CEFCU does not pay.

17

Returned Payment Check Fee
You agree to pay CEFCU a fee of the lesser of $25.00 or the amount
of the Minimum Payment due immediately prior to the date on
which the payment is returned to us for each payment you present
to CEFCU by personal check, to make a payment on your account
that is returned unpaid.
ACH Returned Payment Fee
You agree to pay CEFCU a fee of the lesser of $25.00 or the amount
of the Minimum Payment due immediately prior to the date on
which the payment is returned to us for each payment made on your
account by ACH transfer from an account at another institution or
other electronic means originated by you that is returned unpaid.
Convenience Check Stop Payment Fee
You agree to pay CEFCU a fee of the lesser of $25.00 or the amount
of the Convenience Check for each Convenience Check on which
you stop payment.
Balance Transfer Stop Payment Fee
You agree to pay CEFCU a fee of the lesser of $25.00 or the amount
of the Balance Transfer payment for each Balance Transfer payment
drawn on your account at your request on which you stop payment.
ACH Origination Tel-Entry Return Fee
You agree to pay CEFCU a fee of the lesser of $25.00 or the amount of
the Minimum Payment due immediately prior to the date on which
the payment is returned to us for each ACH origination Tel-Entry
(ACH transfer from an account at another financial institution) to
make a payment on your account that is returned unpaid.
Auto Pay Return Fee
You agree to pay CEFCU a fee of the lesser of $25.00 or the amount
of the Minimum Payment due immediately prior to the date on
which the payment is returned to us for each debit to your Savings or
Checking account at another financial institution to make a payment
on your account that is returned unpaid.

DEFAULT/COLLECTION
We may close your account and require you to return your Card and
to pay your total obligations immediately and without prior notice
if CEFCU is served with any garnishment, attachment, execution or
other process is issued against you, or in the event of your death,
insolvency or bankruptcy; or if you fail to honor any term of this
agreement, including failing to make any payment when it is due or
using the Card or account for an illegal purpose or transaction. If
we require the services of a third party to collect the obligations you
owe to us, or to retrieve the Card or Convenience Checks from you,
we may add the cost of these services to your obligations and you
agree that you will pay us all of these costs relating to the collection
or retrieval which we may incur, including reasonable attorneys’ fees

18

and legal expenses. Interest charges shall continue to accrue until the
principal balance is paid in full.

CLOSING YOUR ACCOUNT
You can cancel this agreement and close your account at any time by
advising us in writing. Except as otherwise prohibited by law, we may
cancel, suspend, or not renew your account or otherwise withdraw
your rights with respect to the account for any reason, at any time,
without notice to you. If you cancel this agreement or if we withdraw
your rights, we may require you to immediately pay all obligations
and destroy the Card and any Convenience Checks or other means
to access your account or return them to us upon request. You
will continue to be responsible for charges to your account even if
they are made or processed after you cancel this agreement or we
withdraw your rights. Until you pay us the obligations in full, this
agreement will remain in effect.

NOTICES/CHANGES OF
INFORMATION RELATING TO YOU
We will send Cards, account statements and other notices to you at
the most current mailing address shown in our files. If you change
your name, address, or other information that we may need to keep
our records up to date, you will promptly tell us in writing, or by any
other means which we may permit.

CHANGING THIS AGREEMENT
We may change this agreement at any time. The amendment may
change the rates, charges, fees, or other terms of this agreement and
can, to the extent the law permits, and indicated in the notice to
you, apply to all outstanding unpaid indebtedness and to any future
transactions on your account. We may add or delete any term of
this agreement. If required by law, we will give you advance written
notice of the change(s) and a right to reject the change(s). Notice of
an amendment will, except as otherwise required by law, be given
to you at least fifteen (15) calendar days before the effective date of
the amendment. Notice of the amendment may, except as otherwise
required by law, be given in The Teller, or other similar, regular
member communication sent to you, by notice in any flyer sent to
you, whether individually or with monthly statements, by including
same on any monthly statement sent to you or by any combination
of the foregoing.

19

TELEPHONE MONITORING AND RECORDING
We, and if applicable, our agents, may listen to and record your
telephone calls with us for our mutual protection and to confirm
our discussions and agreements with you. You agree that we, and
if applicable, our agents, may do so, whether you or we initiate the
telephone call.

CEFCU CURewards® PROGRAM
If you enroll in the CEFCU CURewards® Program (“Program”)
and are issued a CEFCU Rewards MasterCard or CEFCU World
MasterCard, your Card allows you to earn points which can be
redeemed for merchandise, travel opportunities and other rewards.
The CEFCU Rewards MasterCard or World MasterCard Rewards
Guide (“Guide”) contains the Program rules and conditions of your
participation in the Program. The Program and Guide are subject to
change from time to time, without notice to you. The current Guide
is available at any CEFCU Member Center or can be requested by
contacting CEFCU.

QUESTIONS OR CONCERNS
ABOUT YOUR ACCOUNT
If you have a question or concern about your account, please contact
us by telephone toll-free at: 1.800.633.7077 or at 309.633.7000.

YOUR PERSONAL INFORMATION
You agree that CEFCU may release personal data and information
concerning you to MasterCard International, the members of
MasterCard International, or their respective contractors for the
purpose of providing Emergency Cash and Emergency Card
replacement services and to credit reporting agencies, to the extent
not otherwise prohibited by Federal or State law.
You agree that CEFCU may release personal data and information
concerning you, your account and transactions on your account
to its contractors and/or service providers as necessary to effect,
administer or enforce a transaction on your account that you
requested or authorized and/or in connection with maintaining or
servicing your account and/or to the extent permitted or required
by Federal or State law.

ENFORCING THIS AGREEMENT
We can delay enforcing or not enforce any of our rights under this
agreement without losing our right to enforce them in the future. If
any of the terms of this agreement are found to be unenforceable, all
other terms will remain in full force.
20

ASSIGNMENT
We may transfer any or all of our rights under this agreement, by
way of assignment, sale or otherwise. If we do, we may disclose
your personal information and other information concerning your
account to anyone to whom we transfer our rights. You consent to us
sharing your personal information in this manner.

GOVERNING LAW
This agreement is made in Peoria, Illinois and will be governed by
and interpreted in accordance with the laws of the State of Illinois
and the Federal laws applicable therein, without regard to conflict
of laws provisions. You agree that Peoria, Illinois is the appropriate
jurisdiction for all actions brought by you or by us in respect to
this agreement and the relationship contemplated herein. You
also agree that it is appropriate for us to commence an action in
Peoria, Illinois in respect of the recovery of amounts due pursuant
to this agreement.

YOUR BILLING RIGHTS
Keep This Notice For Future Use
This notice tells you about your rights and our responsibilities under
the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
		CEFCU
		 P.O. Box 1715
		 Peoria, Il 61656-1715
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your
bill, describe what you believe is wrong and why you believe
it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. Your written
notice of a billing error must be submitted on something other than
your payment coupon. You may call us, but if you do we are not
21

required to investigate any potential errors and you may have to pay
the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.	Within 30 days of receiving your letter, we must tell you that
we received your letter. We will also tell you if we have already
corrected the error.
2.	 Within 90 days of receiving your letter, we must either correct the
error or explain to you why we believe the bill is correct. While we
investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report
you as delinquent on that amount.
• The charge in question may remain on your statement, and
we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay
the amount in question, along with applicable interest and
fees. We will send you a statement of the amount you owe
and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong,
you must write to us within 10 days telling us that you still refuse to
pay. If you do so, we cannot report you as delinquent without also
reporting that you are questioning your bill. We must tell you the
name of anyone to whom we reported you as delinquent, and we
must let those organizations know when the matter has been settled
between us.
If we do not follow all of the rules above, you do not have to pay the
first $50.00 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have
purchased with your Credit Card, and you have tried in good faith
to correct the problem with the merchant, you may have the right
not to pay the remaining amount due on the purchase.

22

To use this right, all of the following must be true:
1.	 The purchase must have been made in your home state or within
100 miles of your current mailing address, and the purchase price
must have been more than $50.00. (Note: Neither of these are
necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods
or services.)
2.	 You must have used your Credit Card for the purchase. Purchases
made with Cash Advances from an ATM or with a check that
accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with
the purchase, contact us in writing at:
		CEFCU
		 P.O. Box 1715
		 Peoria, Il 61656-1715
While we investigate, the same rules apply to the disputed amount
as discussed above. After we finish our investigation, we will tell you
our decision. At that point, if we think you owe an amount and you
do not pay, we may report you as delinquent.

HELP US DO OUR BEST TO
PREVENT CREDIT CARD CRIME
Report your lost or stolen Credit Card(s) to us immediately, call
1.800.633.7077 or 309.633.7000. Please call or stop by a CEFCU
Member Center to report any unauthorized use. If you cannot do
either, write to:
		CEFCU
		 P.O. Box 1715
		 Peoria, Il 61656-1715
Please Retain This Copy of Your Agreement For Future Reference.

SPECIAL RULES FOR
CALIFORNIA RESIDENTS
If you are a California resident, our right to recover any credit
extended through the use of your Credit Card in making purchases
from a retailer is subject to good faith defenses which you have
properly asserted as a buyer under California law against the retailer
from whom you made the purchases if: (a) the purchase price of
the item as to which a defense is asserted exceeds $50.00; (b) the
purchase was made within the State of California; (c) you have made
a written demand upon the retailer with respect to the purchase and
23

attempted in good faith to obtain reasonable satisfaction from the
retailer, and (d) you give us written notice specifying the retailer, the
date of purchase, the purchase price, the goods or services purchased,
the nature of your defense with respect to the transaction, as well as
the action which you have taken in attempting to obtain satisfaction
from the retailer.

ATM Safety Tips
Use these safety tips and your common sense to help protect yourself
and your CEFCU account(s) when using an ATM.
• Have your card in hand before you approach an ATM. Choose
only well-lit ATMs, and park close to the machine. Always have
someone accompany you when using an ATM at night.
• Memorize your Personal Identification Number (PIN), and never
write it on your card, keep it in your wallet, or reveal it to anyone.
• Be aware of anything suspicious — trust your instincts. If
something doesn’t look right on the machine or you feel
uncomfortable, cancel your transaction immediately and leave.
• Don’t agree to cash or deposit a check for anyone — even someone
you know.
• Keep your car doors locked and engine running when using a
drive-up ATM. Be sure all windows, except your own, are closed.
• Pocket your money immediately and keep the receipt. Then verify
your transaction privately as soon as you can, and then destroy
the receipt after verifying it with your monthly statement.
• Never open a locked door for anyone you don’t know
if using a machine in a facility that requires your card for access.
• Report any crimes immediately to the police, CEFCU, and the
ATM owner.
If your CEFCU Debit Card or CEFCU Credit Card is lost or stolen,
report it to CEFCU immediately at 1.800.633.7077.

07/01/2014

24

